<html>
<title> - U.S. DEPARTMENT OF STATE COUNTERTERRORISM BUREAU: FY 2017 BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



    U.S. DEPARTMENT OF STATE COUNTERTERRORISM BUREAU: FY 2017 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________

                           Serial No. 114-161

                               __________

        Printed for the use of the Committee on Foreign Affairs


             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                
20-173PDF                  WASHINGTON: 2016
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001
            
            
           
            
            
            
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York



                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Justin Siberell, Acting Coordinator for Counterterrorism, 
  Bureau of Counterterrorism, U.S. Department of State...........     3

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Justin Siberell: Prepared statement..........................     6

                                APPENDIX

Hearing notice...................................................    24
Hearing minutes..................................................    25


 
  U.S. DEPARTMENT OF STATE COUNTERTERRORISM BUREAU: FY 2017 BUDGET

                              ----------                              


                         TUESDAY, MAY 17, 2016

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    The purpose of this hearing is to examine the budget for 
the Department of State Counterterrorism Bureau, Fiscal Year 
2017. I have a lengthy opening statement, but without 
objection, I will make it a part of the record and make some 
brief comments.
    The purpose of this is to determine the Counterterrorism 
Bureau's budget. Terrorism is on the rise throughout the world 
in different places, especially with ISIS. In any event, the 
administration has asked for a reduction in the 
Counterterrorism Bureau budget even though that to me is 
counterproductive in the sense that terrorism is on the rise.
    On the other hand, my concern is about evaluations that 
have or have not been made by the success of what the 
Counterterrorism Bureau is doing or not doing. Personally, I am 
not satisfied that the evaluation of how the money is being 
spent and what we are doing is working. So the purpose of this 
hearing is to examine both of those, whether the budget should 
be cut or raised and whether the evaluations are being produced 
and what are the results of those evaluations.
    Without objection, I will allow now the former ranking 
member of the committee, Mr. Sherman, to make an opening 
statement from California. You are recognized.
    Mr. Sherman. Thank you. I will use my opening statement to 
renew the plea I have been making for the State Department for 
at least 5 years and that is that you employ a few individuals 
who are hired solely for their knowledge of Islamic 
jurisprudence, Islamic history, and Islamic law. To think that 
we can combat Islamic extremist terrorism without a single 
person at the State Department who has memorized the Quran 
means that we don't understand the mental world, the 
theological world that our potential adversaries live in.
    We have a State Department with people who think that you 
can show the evil of al-Baghdadi if you can show him personally 
executing a defenseless Yazidi. The fact is they will put that 
up on their Web page as a recruitment tool. We need people who 
understand that if you could just get a picture of him eating a 
ham sandwich, that would undermine ISIS and its recruiting 
ability.
    I remember the conflict between the United States and 
Indonesia over whether Indonesia would give us samples of avian 
flu and called an Islamic scholar who said, well, we would turn 
to the hadith about what the prophet said about rabies, which 
is, after all, just another virus that infects an animal. That 
is not the kind of knowledge that you can get at Princeton. 
Woodrow Wilson did a great job. He did not memorize the Quran.
    So we need State Department people to be able to have 
access onsite to that kind of scholarship and to an 
understanding of Islamic jurisprudence that is every bit as 
sophisticated as the knowledge we have on the Vienna Convention 
on the Law of Treaties and why the Habsburgs took this or that 
position in the negotiations in 18 whatever when that--we have 
a Eurocentric body of knowledge in a very smart State 
Department, and we are going to have to hire just a few people 
who would never pass the test because it is written by the 
Woodrow Wilson school and instead could pass the test to 
demonstrate a real knowledge of Islam.
    With that, I yield back.
    Mr. Poe. I thank the gentleman.
    The chair recognizes the ranking member and gentleman from 
Massachusetts for his opening statement.
    Mr. Keating. Thank you, Mr. Chairman, for conducting this 
hearing. I would also like to thank our witness, Mr. Siberell, 
for being here to discuss the State Department's 
Counterterrorism Bureau.
    In our country's fight against terrorism, one indelible 
truth has been stated over and over, and it is in order to 
truly degrade and ultimately defeat foreign terrorists, 
organizations like ISIS and al-Qaeda, we need a whole 
government-effort approach. The capacity-building programs 
funded and coordinated by the State Department's 
Counterterrorism Bureau are the types of activities in which 
our Government must continue to engage if we are to be 
successful in achieving the Bureau's mission of forging 
partnerships with our partners at home and abroad in 
counterterrorism law enforcement, counter-threat financing, 
counter-radicalization efforts, border security, and restricted 
terrorist travel.
    Undoubtedly, the Bureau has worked to accomplish these 
critical objectives while the State Department has revamped its 
efforts to tackle one of the hardest aspects of 
counterterrorism, and that is combating violent extremism.
    The new Center for Global Engagement is attempting to 
effectively coordinate, integrate, and synchronize messaging to 
foreign audiences that undermines the disinformation espoused 
by violent extremist groups. To be sure, this is not an easy 
task, and we will hear in detail from Mr. Siberell on the 
challenges facing the Bureau.
    I am particularly interested in hearing how leadership has 
addressed a Government Accountability Office report released 
last year on resources, performance, and coordination within 
the Bureau.
    Finally, it is vital that we ensure that funds 
appropriated, the Counterterrorism Bureau for these capacity-
building programs are being used wisely, and the United States 
is getting a good return on its investment.
    As I stated at the beginning, the Counterterrorism Bureau 
plays a critical role in our fight against terrorism, 
particularly with regards to interagency and regional 
collaboration. I look forward to hearing from our witness today 
and to discuss the issues that will ensure.
    I yield back.
    Mr. Poe. I thank the gentleman.
    Without objection, the witness' prepared statement will be 
made part of the record. I ask that the witness keep the 
presentation to no more than 5 minutes.
    I will introduce the witness that we have. Mr. Justin 
Siberell is the acting coordinator for the Bureau of 
Counterterrorism at the State Department. He is a career member 
of the Senior Foreign Service and before joining the CT Bureau, 
he served as a principal officer in Dubai, and he has also 
worked in Iraq, Jordan, Egypt, and Panama.
    So thank you for being here, and you are recognized.

   STATEMENT OF MR. JUSTIN SIBERELL, ACTING COORDINATOR FOR 
 COUNTERTERRORISM, BUREAU OF COUNTERTERRORISM, U.S. DEPARTMENT 
                            OF STATE

    Mr. Siberell. Thank you, Mr. Chairman. Chairman Poe, 
Ranking Member Keating, members of the subcommittee, thank you 
for the opportunity to appear before you today.
    This afternoon, I would like to briefly highlight the 
Bureau of Counterterrorism's work to advance the foremost 
counterterrorism priorities of the United States.
    As you noted, Mr. Chairman, I have submitted a longer 
statement for the record.
    As you know, the United States faces a fluid and fast-
changing terrorism threat environment. The international 
community has made progress in degrading terrorism safe havens, 
but terrorist groups, especially ISIL and al-Qaeda, remain 
resilient.
    Recent attacks in Bamako, Beirut, Brussels, Jakarta, and 
Paris have demonstrated the reach and continued determination 
of these groups to commit violence against civilians. These and 
other attacks have raised the urgency and political will of our 
partners to act against the evolving threat posed by ISIL, al-
Qaeda, and their affiliates.
    President Obama has called for the United States to develop 
more effective partnerships around the world to confront, 
disrupt, and defeat the global threat from terrorism. The 
Bureau of Counterterrorism is playing a critical role in 
developing those partnerships.
    Success of U.S. counterterrorism efforts increasingly 
depends upon capable civilian partners, police, prosecutors, 
border and aviation security personnel, prison officials, and 
community leaders. As with our own domestic experience, these 
actors are on the frontlines in preventing and responding to 
terrorism in their communities.
    The Bureau is leading efforts to build capacity and 
cooperation among these various civilian actors. We appreciate 
the Congress' appropriation of $175 million for the 
Counterterrorism Partnership's Fund in Fiscal Year 2016. We ask 
for your continued support in Fiscal Year 2017. With these 
resources we will strengthen the ability of key law enforcement 
and criminal justice actors from the Sahel to Southeast Asia. 
We are focusing on supporting countries that can help prevent 
ISIL's global expansion while not losing sight of al-Qaeda and 
its affiliates.
    We are expanding our engagement with European partners to 
ensure they enhance capabilities to stem the flow of foreign 
terrorist fighters, improve information-sharing, and disrupt 
local terrorist recruitment networks. We believe these efforts 
are yielding results. Since 2014, 45 countries with which we 
have engaged have passed new laws or updated existing laws to 
address foreign terrorist fighters.
    Through the Bureau's diplomatic efforts, we now have 
enhanced information-sharing arrangements with 55 countries to 
assist efforts to identify, track, and deter the travel of 
known and suspected terrorists. We have also supported INTERPOL 
to enhance its ability to share critical foreign terrorist 
fighter identity data with countries around the world. Fifty-
eight countries plus the United Nations now contribute foreign 
terrorist fighter profiles to INTERPOL.
    As part of our Fiscal Year 2017 request, we have also asked 
for additional funding for our Terrorist Interdiction Program. 
This program provides a highly valuable capability for 
countries to strengthen border controls through enhanced 
technology and training.
    Mr. Chairman, as part of our overall strategy, we believe 
that we must increase our focus on preventing the spread of 
violent extremism to stop the radicalization, recruitment, and 
mobilization of people, especially young people, to engage in 
terrorist activities.
    Secretary Kerry has directed the Bureau of Counterterrorism 
to play the lead role in a more strategic, integrated, and 
ultimately accountable approach to countering violent 
extremism. As notified to the Congress, the Department is 
increasing personnel resources in the Bureau to support this 
mission and renaming the Bureau as the Bureau of 
Counterterrorism and Countering Violent Extremism. We will be 
working very closely with the newly established interagency 
Global Engagement Center and USAID in this effort.
    The Department has also requested additional resources for 
CVE programming in Fiscal Year 2017, including as part of the 
Counterterrorism Partnerships Fund to expand programs to help 
counter violent extremist recruitment and messaging.
    Finally, Mr. Chairman, as documented in our statement for 
the record, we have made changes within the Bureau over the 
past year to foster a culture of strategic planning, learning, 
innovation, and collaboration. We have enhanced the monitoring 
and evaluation of our foreign assistance programming, 
especially our largest programs. Since I last testified before 
this committee, we have launched a comprehensive third-party 
evaluation of our Antiterrorism Assistance Program. That 
evaluation will be completed later this month. We have also 
awarded a new third-party evaluation of our CVE programs. We 
look forward to briefing you and your staff on the results of 
these evaluations.
    Mr. Chairman, there is much more work to do. The terrorism 
landscape is dynamic, and we must continue to enhance and adapt 
our efforts. I am proud of what we are accomplishing at the 
Bureau of Counterterrorism. We have a talented team of people 
who are committed to the work of countering terrorism and 
keeping the country safe.
    We greatly appreciate the interest of Congress and your 
committee in support of these efforts. I look forward to your 
questions and our discussion. Thank you.
    [The prepared statement of Mr. Siberell follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                              ----------                              

    Mr. Poe. I thank the gentleman.
    The House is in the midst of a series of votes, so the 
subcommittee will recess until 5 minutes after the last vote 
has ended. So the subcommittee is in recess. We will reconvene 
5 minutes after the last vote has ended.
    [Recess.]
    Mr. Poe. The subcommittee will come to order.
    I will recognize myself for 5 minutes for a few questions.
    I have three questions, and we have 5 minutes to get the 
questions and the answers. So my first question is the 
administration maintains that counterterrorism is a top 
priority, but why is the administration wanting a budget cut?
    Mr. Siberell. Mr. Chairman, I think if you look at the 
annual requests that go from Fiscal Year 2015, 2016, 2017, you 
will find a significant increase in the '17 request from our 
'15 budget. And the reason is that we received a significant 
increase in '16 out of the Counterterrorism Partnerships Fund, 
an additional $175 million that we are working now to develop a 
sound process for stewardship of those additional funds. And we 
very much appreciate the Congress' support for that program.
    For '17 when we put together our request, we looked at what 
we believed would be required to sustain those efforts, those 
increased efforts in '16, and we determined that an $80 million 
request was adequate for that purpose, and bearing in mind that 
we want to ensure effective stewardship of those funds. So 
either 175 in '16 addition, and then we have asked for 80 
additional in '17. So it may appear to be a decrease from the 
'16 request because we are asking for less under CTPF from '17 
than we received in '16, but overall, it is a significant 
increase. I mean, we are talking about a comparison of our 
request in '17 from what our budget was in '15 is a more than 
$50 million increase in our counterterrorism capacity-building 
foreign assistance budget.
    Mr. Poe. Okay. We are not reading the same statistics, or 
at least I am not reading them the same way you are. The 
Counterterrorism Bureau wants 31 percent less money than last 
year, is that correct or not?
    Mr. Siberell. Well, I would characterize it as our effort 
to sustain this significant increase we received in '16, and I 
will put it that way.
    Mr. Poe. I mean is it--no, put it this way. Is it 31 
percent less than last year or not? I don't want to be 
argumentative, but I need or yes or no?
    Mr. Siberell. Yes. The $80 million we requested is less 
than the $175 we received in '16 under the CTPF, yes.
    Mr. Poe. The administration promised in 2011 that they 
would have a strategy to combat terrorists' use of social 
media, 2011. When is that strategy going to be produced because 
it hasn't been produced? Do you know?
    Mr. Siberell. The administration is working very closely 
internally in the United States Government with the domestic 
agencies, the FBI, Department of Justice, others----
    Mr. Poe. Excuse me again.
    Mr. Siberell. Yes.
    Mr. Poe. Do you know when that is going to be done?
    Mr. Siberell. Is this the strategy you are referring to 
from the State Department? I missed the beginning of your 
question.
    Mr. Poe. Yes, online radicalization by the terrorists' use 
of social media, and we were going to have a strategy to combat 
that, and the President--the administration promised this in 
2011. We don't have it.
    Mr. Siberell. Okay.
    Mr. Poe. When is it going to happen?
    Mr. Siberell. Right. So we have a strategy on countering 
violent extremism that we are just preparing to release with 
the State Department and USAID that does, as one of its 
objectives, address the need for effective counter-messaging 
and counter-narratives, and that is one of the five objectives 
in that strategy that is to be released within the coming week.
    Mr. Poe. Within a week?
    Mr. Siberell. That is the State Department, USAID 
countering violent extremism strategy, joint strategy.
    Mr. Poe. All right. And the last question is GAO reported 
that the CT Bureau has not evaluated its Countering Violent 
Extremism program despite the Bureau saying since 2012 it would 
evaluate the program. When is that going to happen?
    Mr. Siberell. Mr. Chairman, thank you for that question. In 
our hearing last year we discussed the importance of evaluation 
of CTE Bureau-funded Foreign Assistance Programs, and you 
emphasized the importance of this, and we have taken that very 
seriously. We have undertaken a number of evaluations, 
including we have put out a notice of funding for a 
comprehensive third-party evaluation of our Countering Violent 
Extremism programs in three countries: Indonesia, Kenya, and 
Bangladesh. That has been out for funding. It is being awarded 
now, and we expect that that evaluation will be completed by 
the end of this year.
    Mr. Poe. So the GAO, their answer would--I mean, it hasn't 
happened yet, and your answer is that it will be done by the 
end of the year, there will be an evaluation?
    Mr. Siberell. Yes.
    Mr. Poe. Combating terrorism, I think we can all agree to 
the fact that it is important because terrorism is on the rise. 
Tell me why we should justify the CT Bureau? Why should 
Congress justify its existence? Try to keep it simple if you 
would.
    Mr. Siberell. Sure. I think it is a very good question, and 
I appreciate the opportunity to answer.
    People often think of counterterrorism as a mission for law 
enforcement agencies in the domestic realm or for the military 
or intelligence agencies in the international realm. In fact, 
diplomacy plays a key role in bringing together partnerships 
and nations to address our primary counterterrorism objectives. 
We see that in the coalitions that we build to defeat terrorist 
groups on a regional, sub-regional basis, or even a global 
basis. So the global coalition to fight ISIL is an example. The 
coalition of African partners we have developed to fight Boko 
Haram in West Africa, the coalition of nations we have helped 
to develop to fight Al-Shabaab in East Africa.
    Those are just examples of where diplomacy plays a key 
role, and the Bureau of Counterterrorism leads in a number of 
those efforts to build international will, political will and 
partnership and cooperation against these common threats.
    The other piece of what we do--and we appreciate, again, 
the funding we receive from Congress for this purpose--is to 
help build capacity in our primary counterterrorism partners. 
In line with the President's policy of developing strong 
partnerships, I know the Counterterrorism Partnership Fund we 
are helping to build capacity among our partners across the 
civilian agencies so not just in--and our DOD colleagues handle 
that on the military side, but we helped to build improved CT 
legislation, improved judicial capability to prosecute 
terrorist suspects, improved border security measures, improved 
civilian security agencies.
    All of those programs are funded through the support you 
provide to our bureau, and that is what we execute in our 
foreign assistance. So on the one level we are working 
diplomatically to build coalitions to address our terrorism 
challenges, and then we are trying to build capacity in our 
partners to address those in the regions from which these 
threats emanate.
    Mr. Poe. Thank you. The chair recognizes the ranking 
member, the gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Last week, I was in Tunisia, and the situation there was 
described in terms of dealing with terrorist issues there by 
the President himself as fragile, a term he used in our 
conversation at least 10 times by my count. And you are looking 
at a country like that that is struggling to do so many things, 
and he kept impressing on us, too, and I have seen it in other 
countries, particularly in that region, where they are getting 
stressed, leaders are, particularly leaders that are trying to 
move forward in a way that improves democracy.
    The economic issue is just squeezing them on one end in 
terms of support. Some of the other changes that languish, too, 
are a problem.
    How is the Bureau working, you know, to coordinate not only 
counterterrorism but also rule-of-law issues? How do they 
factor that in, economic issues? Because I don't think there 
will be a lasting effort with this without a strong 
collaboration on all of those issues.
    Mr. Siberell. Thank you for the question, Congressman.
    With Tunisia, I agree entirely that that is a country that 
is passing through a very important political transition but 
that has caused significant fragility within the government 
system. And you can absolutely correlate the rise of terrorist 
groups to failures in governance in certain parts of the world 
and certainly in North Africa and the Middle East. And we see 
that in Libya, obviously, and Yemen and other places where the 
government has collapsed and the terrorist groups rise.
    So it is absolutely important that we help the Tunisian 
Government through this transition, and that absolutely 
includes economic support to assist the government to ensure 
that their economy produces the jobs and hopes and 
opportunities for young people that have high expectations from 
this political transition.
    Our counterterrorism assistance is also robust with the 
Tunisian Government and has grown. They face a significant 
threat from regional groups like al-Qaeda and the Islamic 
Maghreb who have come out of Algeria and have brought threats 
into Tunisia. Of course, we have seen the attacks on the museum 
and the tourist site in Sousse. Those were planned by 
individuals----
    Mr. Keating. I was there.
    Mr. Siberell. Yes. So this is a country under assault 
effectively from these terrorist groups, and it does require a 
comprehensive response from us----
    Mr. Keating. Yes. I think they deserve great credit for 
what they are trying to do, but they are definitely in a very 
tenuous situation doing it.
    Let me just shift quickly. Twitter requested last week as 
well, one of its partners Dataminr, a service that offers 
advanced social media analytics and early detection of major 
events like terrorist attacks, to stop providing intelligence 
agencies with their tools and their content. Does this affect 
the relationship with the CT or with the Bureau of Global 
Engagement at all, these kind of actions?
    Mr. Siberell. I am sorry, sir. The action is to restrict 
the sharing of information with----
    Mr. Keating. Yes, with law enforcement----
    Mr. Siberell [continuing]. Law enforcement----
    Mr. Keating [continuing]. Agencies.
    Mr. Siberell. Well, I think we rely upon a cooperative 
relationship with the social media companies, and that is 
primarily the work domestically of the FBI, Department of 
Justice. A cooperative relationship is important because those 
companies, through their terms of service, are in the best 
position to identify content which can be helpful to those 
groups in radicalization and----
    Mr. Keating. In terms of content, do you ever use 
testimonials from foreign fighters who have come back 
disillusioned?
    Mr. Siberell. Yes, indeed, indeed. The Global Engagement 
Center to which you just referred has launched several thematic 
campaigns to amplify messaging, including they ran a campaign 
of formers or defectors. Those who had gone off to Iraq and 
Syria had a disillusioning experience and then were putting 
their testimonials on social media as a way to push back and 
counter the narrative that ISIL has put out about its 
caliphates.
    Mr. Keating. And again on messaging, and it is too bad I 
can't--we are limited with time, but on messaging, are you 
using women and community-based projects? Well, Denmark just 
advanced a program where it is concentrating on a network of 
mothers to identify early signs. Are you engaged in that, and 
how successful has that been?
    Mr. Siberell. Well, there are two things I can point to. 
One is another one of the thematic campaigns that the GEC ran, 
which was centered around families and the impact upon families 
of those who have gone off to fight for these terrorist groups. 
And that was a very effective campaign, and it did focus in 
large part on mothers and the role in the family.
    The second is we have undertaken in a number of our 
Countering Violent Extremism programs to focus on women 
because, as you noted, women are in a unique position in most 
communities to identify the signs of radicalization or the 
infiltration of ideas and ideology of the terrorist groups. So 
they are a primary recipient of our Countering Violent 
Extremism programming effort.
    I will also say, however, that they are difficult to reach 
because this is at the community level, and we have to get our 
programming down to that level. And that is why we work with 
partners like USAID who have the connections in many cases 
through their development work to reach women and build 
networks of women, which they have a history also of doing in 
many parts of the world successfully.
    Mr. Keating. Just lastly, I will give you a chance--the GAO 
reported recently that there were staffing positions that 
weren't filled and recommended that they be filled. What is the 
status of that right now?
    Mr. Siberell. Well, we have 102 authorized full-time 
employment positions in the Bureau of Counterterrorism, 93 of 
which are filled. That leaves nine vacancies, and of those nine 
vacancies, eight are in the process of being filled or being 
advertised. So I think we are doing a pretty good job in 
addressing what the GAO had found in the last several years.
    The Bureau was established as a result of the 2011 QDDR. It 
really became a bureau in 2012. We were allotted a surge of new 
positions, and it did take some time for the Bureau to process 
through those, but we have done that and now we are in fairly 
good shape and are hiring.
    Mr. Keating. I yield back, Mr. Chairman.
    Mr. Siberell. Thank you, sir.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The chair will recognize the gentleman from California, 
Colonel Cook, for his questioning.
    Mr. Cook. Thank you very much, sir.
    I wanted to ask you about Libya and the decisions that are 
going to be made about our arming certain individuals. And of 
course the fear is here we go again. Are we giving this to 
ISIS, ISIL, Daesh, whatever acronym you want to use or whatever 
you call them? And my fear with the State Department or any is 
that the right hand does not talk to the left hand in terms of 
coordinating this information so we make an informed choice and 
then we regret it afterwards. Can you briefly comment on that?
    Mr. Siberell. Thank you, Congressman. In Libya it is a very 
difficult, fluid situation, as you have noted, basically 
chaotic, and you have militias that are squaring off against 
Daesh principally in the area around Sirte in the center of the 
country. Those militias are not yet integrated into a Libyan 
national force, so sharing arms or assisting those groups on 
the ground would be a complicated and difficult endeavor. In 
some cases, however, there are those sub-state actors who are 
in the best position to confront ISIL, so navigating that 
landscape while ensuring that those arms would no transfer over 
to ISIL would be a significant task and a very difficult one.
    Mr. Cook. I want to shift gears a little bit. Maybe this is 
out of the realm a little bit, but I am from San Bernardino 
County. And obviously, we had a very difficult and horrific 
situation involving a terrorist there. And the coordination of 
Federal agencies with--and by the way, I was very, very happy 
with the way the FBI and the sheriff and the police chief, they 
all worked together.
    But in terms of--and then we had some problems with getting 
the data from the cell phone of one of the individuals, you 
know, Apple and you have heard all that drama. Now, if you have 
information of something that would actually affect us in the 
country here, how is that coordinated?
    And I know that is a very difficult question, but I get the 
feeling that we don't always have the best of coordination with 
Federal agencies because everybody works in their own 
functional area or functional silo and the word is not 
disseminated, and what happens is boom, something like this 
happens even though we might have had advanced warning. But if 
you could comment on that, I would appreciate it.
    Mr. Siberell. Well, sir, if you are speaking about 
coordination of the domestic level among the national security 
agencies or the law enforcement agencies, I may not be the best 
place to----
    Mr. Cook. Well, I meant somebody that had ties to a 
terrorist country that----
    Mr. Siberell. Yes.
    Mr. Cook [continuing]. But eventually, the terrorist 
incident actually happens. You know, we had this a few years 
ago when we were talking about the bombings in Boston and 
Chechnya and we had talked about this previously. But----
    Mr. Siberell. I would say that in my own experience, the 
counterterrorism community and the U.S. Government is extremely 
well coordinated and integrated in so far as when there is an 
incident like the Boston Marathon bombers and the need to 
understand the linkages that might exist in a different 
country.
    Same thing with the San Bernardino attack. There is very 
close cooperation between the FBI, the principal investigative 
arm of the U.S. Government, and FBI agents who might be posted 
at our Embassies abroad or representatives of the intelligence 
agencies who can help to pull back the threads on any 
connections. And that is always one of the very first 
questions, of course, that arises in a domestic terrorism 
incident: Is there a connection to an international 
organization or is this directed by a group outside the United 
States?
    And particularly for these attacks like the one in San 
Bernardino, we see ISIL trying to inspire attacks, and those 
questions are always asked and then referred to the host 
country where we work with the intelligence agencies, the law 
enforcement agencies in those countries to develop those 
threats.
    Mr. Cook. Thank you. And I am jumping around a little bit, 
but I always go back to Turkey. And it is not even 
Thanksgiving. Anyway, bad joke. Really concerned about
    The PKK, the Erdogan, and it is like who is the terrorist 
and whether somebody is being falsely accused of being a 
terrorist. And obviously, this affects the politics of that 
particular country where you can use the counterterrorist 
threat to carry out a political agenda. Would you want to 
comment on that or is that too politically sensitive? Or is 
that something that would fall under counterterrorism?
    Mr. Siberell. Well, I can say, sir, in general terms on a 
global basis we are quite concerned about how governments 
undertake their own counterterrorism efforts domestically. And 
those governments that might use counterterrorism as a 
justification for acts that transgressed human rights or that 
are heavy-handed, let's say, in their security approach might 
actually drive the grievances that are leading to the terrorism 
in the first place. So that is a conversation we have globally 
with many, many partners around the world, and it is something 
that we watch very closely.
    Mr. Poe. I thank the gentleman.
    The committee may ask you to appear before the committee in 
a classified setting. Colonel Cook and the ranking member and 
others have raised some questions that we may want to get to 
the bottom of it to understand the situation in the classified 
setting where some of these questions can be answered so we get 
to the bottom line of what is taking place. So thank you for 
being here today. You have got a lot of work to do. You have a 
got a mess on your hands as far as all these bad guys all over 
the world, you know, causing mischief and taking the lives of 
innocents. So it is a tough assignment.
    So, anyway, there may be some other questions that we have 
for you that we will put in writing and we will send to you, in 
addition to the possible classified setting.
    So without objection, all the witnesses' prepared 
statements will be part of the record. Members will have 5 days 
to submit statements, questions, and extraneous materials for 
the record subject to the length limitation and the rules.
    And the subcommittee is adjourned.
    Mr. Siberell. Thank you. Thank you.
    [Whereupon, at 3:18 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              

                Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
